—
1

C@OCKLE

, E-Mail Address:
Legal Briefs contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214
Est. 1923

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No. 20-138

DONALD J. TRUMP,
PRESIDENT OF THE UNITED STATES, et al.,
Petitioners,
v.
SIERRA CLUB, et al.,
Respondents.
CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF THE
RUTHERFORD INSTITUTE AS AMICUS CURIAE IN SUPPORT OF RESPONDENTS AND
AFFIRMANCE in the above entitled case complies with the typeface requirement of Supreme
Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point
for the footnotes, and this brief contains 2493 words, excluding the parts that are exempted by

Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 18th day of January, 2021.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

 

GENERAL NOTARY-State of Nebraska A Chk
: RENEE J. GOSS 9. ;

 

My Comm. Exp. September 5, 2023

Notary Public Affiant 40547
